No. 19-783
IN THE

NATHAN VAN BUREN,
Petitioner,

v.
UNITED STATES,

Respondent.
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amici
Curiae Electronic Privacy Information Center and Fifteen Technical Experts and
Legal Scholars in Support of Respondent complies with the word limitations set
forth by the Rules of the Court. I certify that the Brief contains 6,014 words, not
counting the portions excluded by Supreme Court Rule 33.1(d).
I declare that under penalty of perjury that the foregoing is true and correct.
Executed on September 3, 2020.
/s/ Alan Butler
Alan Butler
Electronic Privacy Information
Center (EPIC)
1519 New Hampshire Ave N.W.
Washington, DC 20036
(202) 483-1140
butler@epic.org

